App. 1
18-588
Mitchell v. City of New York
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY
OF IT ON ANY PARTY NOT REPRESENTED BY
COUNSEL.
At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York on the 31st day of January, two
thousand nineteen.
Present:

ROSEMARY S. POOLER,
REENA RAGGI,
DEBRA ANN LIVINGSTON,
Circuit Judges.

App. 2
MELINDA MITCHELL, individually
and on behalf of a class of all others
similarly situated, HARVEY MITCHELL,
individually and on behalf of a class of
all others similarly situated,
Plaintiffs-Appellants,
v.

No. 18-588

CITY OF NEW YORK, a municipal
entity, NYC POLICE OFFICER JAMES
SCHUESSLER, Shield No. 28718,
POLICE OFFICER JOSEPH BRINADZE,
NYPD CAPTAIN JOSEPH GULOTTA,
NYPD SERGEANT DANIELLE
ROVENTINI, NYPD LIEUTENANT
KATHLEEN CAESAR, RICHARD
ROES 1-50, NEW YORK CITY POLICE
SUPERVISORS AND COMMANDERS,
JOHN DOES, 1-50 NEW YORK
CITY POLICE OFFICERS,
individually, and in their official
capacities, jointly and severally,
Defendants-Appellees.
Appearing for Appellants:
Jeffrey A. Rothman (Jonathan C. Moore, Beldock
Levine & Hoffman LLP, Joshua S. Moskovitz,
Bernstein Clarke & Moskovitz, on the brief ), New
York, N.Y.
Appearing for Appellees:
Melanie T. West, Assistant Corporation Counsel,
(Richard Dearing, Devin Slack, on the brief ), for

App. 3
Zachary W. Carter, Corporation Counsel of the
City of New York, New York, N.Y.
Appeal from the United States District Court for the
Southern District of New York (Kaplan, J.).
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED that the judgment of said District Court be
and it hereby is AFFIRMED.
Appellants Melinda Mitchell and Harvey Mitchell,
putatively on behalf of themselves and all others similarly situated (“Plaintiffs”), appeal from the February
1, 2018 judgment of the United States District Court
for the Southern District of New York (Kaplan, J.)
granting summary judgment to defendant police officers (“City Defendants”) regarding claims of false arrest
because the officers were protected by qualified immunity. Mitchell v. City of New York, 2018 WL 671257
(S.D.N.Y. Jan. 31, 2018). We assume the parties’ familiarity with the underlying facts, procedural history,
and specification of issues for review.
The facts are drawn from our previous opinion in
Mitchell v. City of New York, 841 F.3d 72 (2d Cir. 2016)
(“Mitchell II”), where they are recited in more detail.
Melinda and Harvey (we refer to them by their first
names as they are unrelated) were among those attending a house party at a brownstone in Brooklyn
that the police believed to be abandoned. After the police arrived, officers asked the partygoers to identify
who owned the house, or who was hosting the party.
When no one identified the owner or host, Deputy

App. 4
Inspector Joseph Gulotta ordered all those present arrested.
Melinda and Harvey sued, bringing a putative
class action alleging Section 1983 claims for false arrest, malicious prosecution, abuse of process, and excessive force. After discovery, the parties cross-moved
for summary judgment. On February 11, 2013, the district court granted appellees’ motion for summary
judgment in its entirety. Mitchell v. City of New York,
14 WL 535046, at *6 (S.D.N.Y. Feb. 11, 2014) (“Mitchell
I”). The Plaintiffs appealed, and this Court affirmed on
all grounds but one: “whether the appellee police officers had probable cause to arrest appellants for trespass.” Mitchell II, 841 F.3d at 75. We remanded for the
district court to consider the false arrest claim and the
appellee’s claim of qualified immunity as it related to
the false arrest. The City Defendants moved for summary judgment on qualified immunity grounds, and
the district court granted that motion. Plaintiffs timely
appealed.
We affirm. After remand, the Supreme Court considered the case of District of Columbia v. Wesby, 138
S. Ct. 577 (2018). Wesby is a party-house case: the
question before the Court was whether there was probable cause for District of Columbia police officers to arrest 16 partygoers “who were arrested for holding a
raucous, late-night party in a house they did not have
permission to enter.” Id. at 582. As here, the arrestees
brought Section 1983 false arrest claims against the
District of Columbia and the arresting police officers.
The Supreme Court concluded that based on the

App. 5
circumstances, the officers had probable cause to arrest the partygoers, and also exercised its discretion to
find that the officers were entitled to qualified immunity. Id. at 589.
Because the district court assumed the absence of
probable cause for the arrests, the only issue on appeal
is the question of whether Wesby dictates that the officers here were entitled to qualified immunity. Qualified immunity protects officials from damages liability
if their conduct “does not violate clearly established
statutory or constitutional rights of which a reasonable person would have known.” Mullenix v. Luna, 136
S. Ct. 305, 308 (2015) (citations omitted). “ ‘Clearly
established’ means that, at the time of the officer’s
conduct, the law was sufficiently clear that every
‘reasonable official would understand that what he is
doing’ is unlawful.” Wesby, 138 S. Ct. at (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)). “That determination is made not from the perspective of courts
or lawyers, but from that of a reasonable officer in the
defendant’s position.” Ganek v. Leibowitz, 874 F.3d 73,
81 (2d Cir. 2017) (citations omitted). After determining that a legal rule was clearly established, the next
question is whether “the legal principle clearly prohibit[s] the officer’s conduct in the particular circumstances before him.” Wesby, 138 S. Ct. at 590. The
“specificity” of the rule a plaintiff seeks to apply is “especially important in the Fourth Amendment context,”
id. (citation omitted), because “[p]robable cause turns
on the assessment of probabilities in particular factual

App. 6
contexts and cannot be reduced to a neat set of legal
rules.” Id. (citation and alterations omitted).
A police officer is entitled to qualified immunity in
the context of a false arrest claim if there was at least
“arguable probable cause” at the time the officer arrested the plaintiff. See Figueroa v. Mazza, 825 F.3d 89,
100 (2d Cir. 2016). In assessing arguable probable
cause, the inquiry is “whether any reasonable officer,
out of the wide range of reasonable people who enforce
the laws in this country, could have determined that
the challenged action was lawful.” Id. (emphases in
omitted).
Mitchell II found Plaintiffs raised a question of
material fact as to the issue of probable cause, and the
district court assumed for the purposes of its analysis
that probable cause did not exist. But the question in
determining whether the City Defendants are protected by qualified immunity turns on the question of
arguable probable cause—a lesser showing. The only
truly distinguishing fact between this case and Wesby
is that in Wesby, the police officers made more of an
effort to determine if the house was truly abandoned.
138 S. Ct. at 583-84. That is not enough of a difference
to deny the City Defendants qualified immunity.
Wesby emphasized that qualified immunity is appropriate unless a court can “identify a case where an
officer acting under similar circumstances . . . was held
to have violated the Fourth Amendment.” Wesby, 138
S. Ct. at 590 (citation omitted). The case need not be
directly on point, “but the existing precedent must

App. 7
place the lawfulness of the particular arrest beyond debate.” Id. (internal quotation marks omitted). Thus,
there must be a “body of relevant case law [that]
clearly establish[es] the answer with respect to probable cause.” Id. Plaintiffs identify no such case here.
We have considered the remainder of Plaintiffs’ arguments and find them to be without merit. Accordingly, the order of the district court hereby is
AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

App. 8
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
––––––––––––––––––––––x
MELINDA MITCHELL and
HARVEY MITCHELL, individually,
and on behalf of a class of all
others similarly situated,
Plaintiffs,

12 Civ. 2674
(LAK)

-againstTHE CITY OF NEW YORK, etc., et al.,
Defendants.
––––––––––––––––––––––x
MEMORANDUM OPINION
(Filed Jan. 31, 2018)
Appearances
Jeffrey Adam Rothman
Jonathan C. Moore
Jennifer Rolnick Borchetta
BELDOCK LEVINE & HOFFMAN LLP
Attorneys for Plaintiffs
Brian Christopher Francolla
Erica Michelle Haber
NEW YORK CITY LAW DEPARTMENT
Attorneys for Defendants
LEWIS A. KAPLAN, District Judge.
The matter is before the Court on defendants’
renewed motion for summary judgment and plaintiffs’ renewed motion for partial summary judgment.

App. 9
For the reasons stated below, defendants’ motion is
granted and plaintiffs’ motion is denied.
Background
Prior Proceedings
This putative class action lawsuit against the City
of New York and certain named and unnamed police
officers asserts claims under Section 1983 for false arrest, malicious prosecution, abuse of process, excessive
use of force, and municipal liability as well as parallel
claims under state law.
Defendants previously moved for summary judgment dismissing the complaint.1 Plaintiffs crossmoved for partial summary judgment on their false arrest and state law battery claims.2 In a memorandum
opinion dated February 11, 2014, this Court granted
defendants’ motion, denied plaintiffs’ motion, and dismissed the action.3 While the Court ruled on all of
plaintiffs’ claims, what remains relevant is only its
holding that the officer defendants had probable cause
to arrest the plaintiffs for trespass4 and, in any case,
that they were entitled to qualified immunity on the
basis of arguable probable cause.5

1

DI 18.
DI 22.
3
Mitchell v. City of New York, No. 12 Civ. 2674 (LAK), 2014
WL 535046 (S.D.N.Y. Feb. 11, 2014).
4
Id. at *3-*5.
5
Id. at *5 n.56.
2

App. 10
The Second Circuit affirmed in all respects save
one – it reversed and remanded as to the false arrest
claim, concluding that there was a genuine issue of material fact as to whether the officers reasonably could
have believed that plaintiffs were trespassers and thus
that there was probable cause to arrest.6 It left open
the question of whether the officers were entitled to
qualified immunity with respect to the false arrest
claim. The Court now considers the parties’ renewed
motions for summary judgment and partial summary
judgment as to the false arrest claim.
Facts
The Court set forth the facts in its earlier memorandum opinion:
“In or about December 2010, Lieutenant
Caesar of the New York City Police Department responded to an incident at 2142 Atlantic Avenue in Brooklyn. On that occasion, she
discovered that the premises at the location
appeared abandoned, having little inside
other than a bar and a ‘dance pole area.’ Police
subsequently made it a point to drive past the
house.
“At approximately 2:15 a.m. on January
9, 2011, about one month later, Lieutenant
Caesar observed three individuals standing on the porch at 2142 Atlantic Avenue.
She then called another officer. Lieutenant
6

Mitchell v. City of New York, 841 F.3d 72, 79 (2d Cir. 2016).

App. 11
Hopkins, Deputy Inspector Gulotta, and approximately thirty additional officers responded to the address. Deputy Inspector
Gulotta believed that there had been a history
of parties at the location and incorrectly believed that a rape had been committed there
several weeks earlier.
“The officers observed that the first-floor
windows were blocked and that there was a
real estate sign in the front of the property,
which was surrounded by a waist-high steel
fence. They attempted to enter the house but
found that the front door was locked. Lieutenant Caesar then attempted to enter the building through the back door and found that it
was ‘blocked, like [by] something heavy
against the door.’ She and other officers ultimately were able to push the door open.
“Upon entering, they discovered that a
party was taking place inside with between 40
and 60 people in attendance. The party included disco lights, a bar, a DJ and DJ booth,
a television, and some couches. Detective Inspector Gulotta smelled a strong odor of marijuana, and Office Schuessler observed six to
eight ‘nickel’ or ‘dime’ bags on the floor containing what appeared to be marijuana and
crack cocaine.
“Deputy Inspector Gulotta and Lieutenant Caesar believed that the house had been
abandoned by its owner. There were portable heaters throughout and extension cords
that ran to a neighbor’s garage. When asked,

App. 12
nobody in attendance could or would identify
the party’s host.7 Plaintiffs testified that attendees responded ‘we didn’t do anything, we
don’t know who the person is.’ Melinda and
Harvey Mitchell stated during their depositions that they had learned of the party
through various DJs and believed they were
permitted to be there, but they did not know
who owned the house or who was hosting the
party.
“After the party’s attendees failed to identify who was hosting the party or owned the
house, Deputy Inspector Gulotta decided to
arrest everyone inside.”8
Discussion
Probable Cause
The Second Circuit previously decided that there
is an issue of fact as to the existence of probable cause
to arrest. In ordinary circumstances, the mandate
rule would foreclose this Court from reexamining that
issue.9 Nevertheless, the Supreme Court’s recent

7

Deputy Inspector Gulotta asked also whether anyone in attendance knew who owned the building, but no one answered. DI
21, ¶ 41.
8
Mitchell, 2014 WL 535046, at *1-*2.
9
See, e.g., Sompo Japan Ins. Co. of Am. v. Norfolk S. Ry. Co.,
762 F.3d 165, 175 (2d Cir. 2014) (“ ‘Under the law-of-the-case doctrine, where a case has been decided by an appellate court and
remanded, the court to which it is remanded must proceed in accordance with the mandate and such law of the case as was

App. 13
decision in District of Columbia v. Wesby10 arguably effected a dramatic change in law such that this Court
may reconsider that issue.11
In Wesby, the Supreme Court’s determination that
there was probable cause to arrest was made on
established by the appellate court.’ ” (quoting Kerman v. City of
New York, 374 F.3d 93, 109 (2d Cir. 2004)).
10
District of Columbia v. Wesby, No. 15-1485 (Jan. 22, 2018).
11
See Brown v. City of Syracuse, 673 F.3d 141, 148-49 (2d
Cir. 2012) (concluding that a “definitive alteration in controlling
state law” permitted reexamination of evidentiary issue by district court on remand); see also N. River Ins. Co. v. Phila. Reinsurance Corp., 63 F.3d 160, 165 (2d Cir. 1995) (“[A] court may
depart from the law of the case where a fundamental change in
the governing law impacts directly upon the parties’ rights and
obligations. We have also held, however, that the law of the case
should be disregarded only when the court has a clear conviction
of error with respect to a point of law on which its previous decision was predicated.” (quotations omitted)); 18B CHARLES ALAN
WRIGHT & ARTHUR R. MILLER, FEDERAL PRACTICE AND PROCEDURE:
JURISDICTION AND RELATED MATTERS § 4478.3, at 746 (2d ed. 2017)
(“If final judgment has not yet been entered, a compelling showing
may justify departure from the mandate. The most likely justification arises when events outside the particular action establish
a clear change in controlling law.”); cf. Zdanok v. Glidden Co.,
Durkee Famous Foods Div., 327 F.3d 944, 951 (2d Cir. 1964) (“[I]f,
before a case in a district court has proceeded to final judgment,
a decision of the Supreme Court demonstrates that a ruling on
which the judgment would depend was in error, no principle of
‘the law of the case’ would warrant a failure on our part to correct
the ruling.”). But see Higgins v. Cal. Prune & Apricot Grower, Inc.,
8 F.3d 896, 897 (2d Cir. 1924) (finding that the Court of Appeals
is “free to reconsider [its] earlier decision” to “follow the later decision of the Supreme Court,” but concluding that district court
“rightly” “declined to consider the effect of that [Supreme Court]
decision” given that it was bound by the mandate of the Court of
Appeals).

App. 14
similar facts.12 Nonetheless, plaintiffs point to several
factual distinctions between the two cases,13 and the
probable cause question often can be fact intensive. In
the circumstances, the Court assumes without deciding that the officers lacked probable cause and proceeds directly to qualified immunity.
Qualified Immunity Standard
“A police officer is entitled to qualified immunity
from liability for his discretionary actions if either
(1) his ‘conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known,’14 or (2) it was ‘ “objectively
reasonable” for him to believe that his actions were
lawful at the time of the challenged actt.’ ”15 Under the
second prong of the qualified immunity analysis, an officer “will still be entitled to qualified immunity [with
respect to a false arrest claim] . . . if he can establish
that there was ‘arguable probable cause’ to arrest.”16
“Arguable probable cause exists if either (a) it was
objectively reasonable for the officer to believe that
probable cause existed, or (b) officers of reasonable
12

Wesby, No. 15-1485, slip op. at 7-13.
DI 55.
14
Cerrone v. Brown, 246 F.3d 194, 199 (2d Cir. 2001) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)).
15
Id. (quoting Lennon v. Miller, 66 F.3d 416, 420 (2d Cir.
1995)).
16
Zalaski v. City of Hartford, 723 F.3d 382, 390 (2d Cir.
2013) (quoting Escalera v. Lunn, 361 F.3d 737, 743 (2d Cir.
2004)).
13

App. 15
competence could disagree on whether the probable
cause test was met.”17 This standard is “more favorable” to police officers than the one for probable cause.18
As the Second Circuit has stated:
“ ‘[I]t is inevitable that law enforcement officials will in some cases reasonably but mistakenly conclude that probable cause is
present, and we have indicated that in such
cases those officials – like other officials who
act in ways they reasonably believe to be lawful – should not be held personally liable.’19
Even on summary judgment, where all facts
must be viewed in the light most favorable to
the non-moving party, for the purpose of qualified immunity and arguable probable cause,
police officers are entitled to draw reasonable
inferences from the facts they possess at the
time of a seizure based upon their own experiences.20 A ‘police officer is not required to explore and eliminate every theoretically
plausible claim of innocence before making an
arrest.’ Nor is a police officer required to ‘sit

17

Id. (internal quotation marks omitted) (quoting Escalera,
361 F.3d at 743); see also Wesby, No. 15-1485, slip op. at 16
(“[O]fficers are entitled to qualified immunity because they ‘reasonably but mistakenly conclude[d] that probable cause [wa]s
present.’ ” (quoting Anderson v. Creighton, 483 U.S. 635, 641
(1987)).
18
Escalera, 361 F.3d at 743.
19
Cerrone, 246 F.3d at 203 (quoting Anderson, 483 U.S. at
641).
20
Id. (citing Ornelas v. United States, 517 U.S. 690, 699
(1996)).

App. 16
as prosecutor, judge, or jury’ in making a probable cause determination.”21
Arguable Probable Cause
Under New York law, “[a] person is guilty of trespass when he knowingly enters or remains unlawfully
in or upon premises.”22 Here, the officers entered a
house which they believed to have been abandoned
based on prior experiences surveying the house. On the
day of the party, there were several signs that the
house in fact had been abandoned, including that the
party goers were using portable heaters and running
extension cords out the back door and across the back
yard into the garage of a neighboring property. Moreover, the people in the house turned the music off and
tried to run away as soon as the officers arrived, and
nobody responded when Deputy Inspector Gulotta
asked those present whether they knew who owned
the property or who had thrown the party. Thus, the
officers had reason to believe that those present knew
that they were not lawfully on the premises.
The Supreme Court recently considered similar
facts in Wesby. The police officers there responded to a
complaint at a house that they believed was vacant.
When the officers arrived, they found “a makeshift
strip club” in the living room of the house. The party
goers stated they had been invited to the house, and a
21

Id. (quoting Martinez v. Simonetti, 202 F.3d 625, 635-36
(2d Cir. 2000)).
22
N.Y. PENAL LAW § 140.05.

App. 17
couple of individuals told the officers that someone
named “Peaches” had thrown the party. When the officers reached Peaches on a mobile phone, she initially
told the officers that she was renting the house, but
then admitted that she did not have permission to use
the house. The officers then contacted the owner of the
property, who confirmed that Peaches did not have permission to be in the house. The officers thereupon arrested all twenty-one party goers for unlawful entry.23
Similar to trespass under New York law, unlawful entry under District of Columbia law requires a finding
that the alleged intruder knew or should have known,
upon entry, that such entry was against the will of the
owner. The lower courts had held that the officers were
not entitled to qualified immunity because they had
had no evidence to controvert the notion that Peaches
had invited the party goers to the house, which in turn
would have vitiated the necessary element that the
party goers knew or should have known that their entry was unlawful.
The Supreme Court reversed and unanimously
held that the officers were entitled to qualified immunity in respect of the arrests of all of the party goers.24
It pointed to the facts that the officers confronted upon
arriving at the house, including that there were people
at a house that the officers believed, and that appeared
that day, to be vacant, that the people in the house ran
away when the officers entered the house, and that
23
24

Wesby, No. 15-1485, slip op. at 2-3.
Id. at 15-19.

App. 18
their explanations for being at the house were inconsistent and replete with holes. Moreover, the source of
their alleged invitation to the house actually had no
right to be in the house.25
The circumstances of this case weigh even more
heavily in the officers’ favor because none of the party
goers identified the owner of the house or the host of
the party. Plaintiffs’ argument that qualified immunity
must be denied because of Deputy Inspector Gulotta’s
“admission that he would have released the party goers if they had answered his questions as to his satisfaction as to who owned the property and who was
running the party, and that he relied on the fact that
he did not get an answer to his questions in deciding
to arrest them all” is unpersuasive. The officers had no
evidence that plaintiffs were lawfully in the house, and
the officers were faced with a collection of suspect circumstances. It is no leap to conclude that the officers
reasonably could have believed that the guests knew
that they were not supposed to be in the house. The
officers thus had arguable probable cause to arrest
plaintiffs for trespass. Accordingly, the Court holds
that the officer defendants are entitled to qualified immunity in respect of plaintiffs’ claims for false arrest.
Conclusion
For the foregoing reasons, defendants’ motion for
summary judgement dismissing the complaint is

25

Id. at 15-16.

App. 19
granted and plaintiffs’ motion for partial summary
judgment is denied.
SO ORDERED.
Dated:

January 31, 2018
/s/

Lewis A. Kaplan
Lewis A. Kaplan
United States District Judge

App. 20
14-0767-cv
Mitchell et al. v. The City of New York et al.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2014
(Argued: February 20, 2015

Decided: October 28, 2016)

Docket No. 14-0767-cv
-------------------------------------------------MELINDA MITCHELL, individually and on
behalf of a class of all others similarly situated,
HARVEY MITCHELL, individually and on
behalf of a class of all others similarly situated,
Plaintiffs-Appellants,
v.
THE CITY OF NEW YORK, a municipal entity,
NYC POLICE OFFICER JAMES SCHUESSLER,
Shield No. 28718, RICHARD ROES, 1-50 NEW
YORK CITY POLICE SUPERVISORS AND
COMMANDERS, JOHN DOES, 1-50 NEW YORK
CITY POLICE OFFICERS, individually, and in
their official capacities, jointly and severally,
POLICE OFFICER JOSEPH BRINADZE,
NYPD CAPTAIN JOSEPH GULOTTA,
NYPD SERGEANT DANIELLE ROVENTINI,
and NYPD LIEUTENANT KATHLEEN CAESAR,
Defendants-Appellees.
-------------------------------------------------Before: WINTER, POOLER, and SACK, Circuit Judges.
Appeal from a judgment of the United States District Court for the Southern District of New York

App. 21
(Lewis A. Kaplan, Judge), granting appellees’ motion
for summary judgment and dismissing appellants’
claims. We hold that there is a genuine issue of material fact as to whether the New York City Police officers
had probable cause to arrest appellants for trespass.
The district court therefore improperly dismissed appellants’ false arrest claim. We affirm as to all other
claims.
JEFFREY A. ROTHMAN (Jonathan C. Moore &
Joshua S. Moskovitz, Beldock Levine & Hoffman
LLP, New York, NY, on the brief ) New York, NY,
for Plaintiffs-Appellants.
DRAKE A. COLLEY, for Zachary W. Carter, Corporation Counsel of the City of New York, New
York, NY, for Defendants-Appellees.
WINTER, Circuit Judge:
Melinda Mitchell and Harvey Mitchell – we will
refer to them as Melinda and Harvey because they are
not related – along with other similarly situated individuals, appeal from Judge Kaplan’s dismissal of their
complaint on a grant of summary judgment to appellees. We hold that there is a genuine dispute of material fact as to whether the appellee police officers had
probable cause to arrest appellants for trespass. We
therefore vacate the judgment. We remand the false arrest claim and appellees’ claim of qualified immunity
related to the false arrest. We affirm the dismissal of
the malicious prosecution, abuse of process, and municipal liability claims.

App. 22
BACKGROUND
This appeal is from a grant of summary judgment,
and the following recitation of facts, therefore, views
the evidentiary record in the light most favorable to
appellants, the non-moving party. Rentas v. Ruffin, 816
F.3d 214, 220 (2d Cir. 2016) (citation omitted).
In December 2010, Lieutenant Kathleen Caesar of
the New York City Police Department (“NYPD”) responded to a report of a sexual assault at a brownstone
located at 2142 Atlantic Avenue, in Brooklyn, New
York. When Caesar arrived with another police officer,
she saw two women, one of whom said she was robbed
in the brownstone. After no one responded to her
knocks at the front door, Caesar entered the premises
through the back door. She found no one inside. On the
first floor, she observed a bar area next to the kitchen,
a room with a dance pole, and a living room with no
furniture. Caesar concluded that the house was abandoned. She told her colleague Lieutenant John Hopkins of this and later made it a point to drive by the
brownstone during her patrol shifts since she believed
the brownstone might have been “being used for parties.” J. App’x at 104.
About a month later, on January 9, 2011, Melinda
and Harvey attended a party at the 2142 Atlantic
Avenue brownstone. While both were invited by acquaintances, neither knew who was hosting the party
or who owned the property. To enter the brownstone,
they opened a small unlocked gate, and proceeded
through the front door. There were no signs prohibiting

App. 23
entrance to the building. There was, however, a realtor’s for-sale sign on the property.
At about 2:15 a.m. on January 9, 2011, Caesar was
driving by the brownstone when she saw three people
standing on its stoop. She called Hopkins to inform him
that suspicious activity might be taking place at the
premises. After Hopkins, Captain Joseph Gulotta, and
other officers arrived, Caesar knocked at the front door
but no one answered. She tried to open the door, but it
was locked. She and some of the officers proceeded to
the rear of the property and entered the brownstone
through the back door. Caesar then made her way
through the brownstone, past “about 30 kids” to the
front door to let in more officers. Id. at 127-128.
Inside, the officers found at least 30 people. According to appellants, space was set up for a party, with
a bar, a projector screen, disco lights, running water,
working heat, DJ equipment, and an area with a big
TV and some couches. Gulotta testified at his deposition that he saw that electricity was being routed in
from outside the house via extension cords. Gulotta
also testified at his deposition that he smelled marijuana upon entering the brownstone, and another officer,
James Schuessler, testified at his deposition that he recalled seeing six or eight “nickel” or “dime” bags containing what looked to be marijuana and crack cocaine
on the floor of the brownstone.
Upon entering the brownstone, the police told
everyone to be quiet and then repeatedly asked who
owned the property and who was hosting the party.

App. 24
Some people replied that they did not know who the
owner was. When no one revealed the owner or host,
Gulotta ordered the arrest of everyone present. The arrests were based on Gulotta’s belief that everyone at
the party had: (i) “trespass[ed]”; (ii) “loiter[ed] for the
purpose of using narcotics”; and (iii) “endanger[ed] the
welfare of a child because there was a 12 year-old child
present.” Id. at 582. The only issue raised in this appeal
with regards to the arrests is whether there was probable cause for the arrests for trespass.
Melinda and Harvey were arrested and both were
handcuffed. Melinda was handcuffed for approximately one hour by an officer who refused to loosen the
handcuffs when she complained they were too tight.
The handcuffs caused bruising to her wrist that required her to take Advil and use an ice pack for two
days. Harvey was handcuffed for 20 to 30 minutes; he
alleged the handcuffs left marks on his arms but required no medical treatment.
All arrestees were processed at the precinct and
their fingerprints and mug shots taken. Melinda was
released with a “Desk Appearance Ticket” (“DAT”),
which required her to appear in court at a later date.
Harvey was processed through the Brooklyn Central
Booking facility and arraigned.
After the arrests, several police officers each submitted statements entitled, “Supporting Deposition –
Trespass in a Dwelling and Resisting Arrest,” to the
Kings County District Attorney’s Office. The statements attested to the officers’ understanding that the

App. 25
brownstone was categorized as a Formal Trespass Affidavit Program (“FTAP”) dwelling and that the NYPD
was the lawful custodian of the property.1 Notwithstanding the officers’ statement at the time of the arrest, it is now undisputed that the brownstone was not
part of FTAP. The record does not illuminate whether
the building was privately owned or abandoned to City
custody, although demonstrating City custody would
have helped the defense to show probable cause for the
trespass arrests.
The Kings County District Attorney’s Office later
declined to prosecute Melinda and others who received
a DAT following the arrests at the brownstone. It also
dropped all charges against Harvey pursuant to an Adjournment in Contemplation of Dismissal.
On April 6, 2012, appellants filed their original complaint in the present action, in which they assert Section 1983 claims for false arrest, malicious prosecution,
abuse of process, and excessive force. On November 5,

1

The FTAP was developed to allow tenants and landlords
to complain of drug-related activity occurring in the common areas of multi-dwelling apartment buildings. Landlords participating in the FTAP are asked to sign an affidavit authorizing the
police to perform vertical patrols in their buildings. The police
are also given keys to common areas and a list of tenant residents. See, e.g., Charles J. Hynes, Ask the DA: Preventing Illegal
Activity in Apartment-Building Hallways, Brooklyn Daily Eagle
(Sept. 19, 2012), www.brooklyneagle.com/articles/ask-da-preventingillegal-activity-apartment-building-hallways-2012-09-19-090000;
N.Y. Cty. Dist. Atty.’s Office, Trespass Affidavit Program, http://
manhattanda.org/trespass-affidavit-program (last visited Oct.
26, 2016).

App. 26
2012, appellants filed their amended complaint asserting the same Section 1983 claims.
After discovery, both parties moved for summary
judgment. Appellees moved for summary judgment on
all of appellants’ claims, whereas appellants moved for
partial summary judgment only on their federal and
state law claims for false arrest and their state law
claims for battery. The battery claim arising under
New York law became moot, however, when the New
York Appellate Division, Second Department, reversed
the decision of the Kings County Supreme Court that
granted appellants leave to file late notices of their
claims. Mitchell v. City of N.Y., 977 N.Y.S.2d 368, 370
(2013). On February 11, 2013, the district court
granted appellees’ motion for summary judgment in its
entirety. Mitchell v. City of N.Y., No. 12 CIV. 2674 LAK,
2014 WL 535046, at *6 (S.D.N.Y. Feb. 11, 2014). This
timely appeal followed.
DISCUSSION
We review de novo a district court’s grant of summary judgment, “construing the evidence in the light
most favorable to the non-moving party and drawing
all reasonable inferences in its favor.” Costello v. City
of Burlington, 632 F.3d 41, 45 (2d Cir. 2011) (citation
omitted). “[I]t is well-settled that [this court] may affirm on any grounds for which there is a record sufficient to permit conclusions of law, including grounds
nor relied upon by the district court.” Holcomb v.

App. 27
Lykens, 337 F.3d 217, 223 (2d Cir. 2003) (internal quotation marks and citation omitted).
a) False Arrest
1)

Probable Cause

We first address the district court’s holding that
the police had probable cause to arrest appellants. See
Mitchell, 2014 WL 535046, at *3-*4. “The existence of
probable cause to arrest constitutes justification and is
a complete defense to an action for false arrest”
brought under Section 1983. Jenkins v. City of N.Y.,
478 F.3d 76, 84 (2d Cir. 2007) (internal quotation
marks and citations omitted). “Probable cause . . . exists when the [arresting] officers have knowledge or
reasonably trustworthy information of facts and circumstances that are sufficient to warrant a person of
reasonable caution in the belief that the person to be
arrested has committed or is committing a crime.” Id.
at 84-85 (internal quotation marks and citations omitted). A court deciding whether probable cause existed
must “examine the events leading up to the arrest, and
then decide whether these historical facts, viewed from
the standpoint of an objectively reasonable police officer, amount to probable cause.” Maryland v. Pringle,
540 U.S. 366, 371 (2003) (internal quotation marks
omitted). Where “an arrest is not made pursuant to a
judicial warrant, the defendant in a false arrest case
bears the burden of proving probable cause as an affirmative defense.” Dickerson v. Napolitano, 604 F.3d
732, 751 (2d Cir. 2010) (citation omitted).

App. 28
On this record, it appears that no member of the
NYPD made serious efforts to verify the legal status of
the brownstone, i.e., the existence of a person or entity
with a claim of occupancy of ownership, the property’s
status under the FTAP, or the lack of any claim or
other status. When Lieutenant Caesar first visited the
property in December 2010, she failed to investigate
the ownership status of the brownstone and assumed
it was abandoned, even though there were signs of use.
Based on the evidence in the record, a trier of fact could
find that, when Caesar re-entered the brownstone in
the early morning of the day of the arrests, she did so
based solely on her earlier conjectures that the brownstone was abandoned and that appellants were therefore trespassing. A trier of fact could further find this
belief was unreasonable, given the for-sale sign in the
front yard. Indeed, as Captain Gulotta conceded, the
existence of a real estate sign suggested that someone
claimed ownership of the brownstone.
Other officers stated (inconsistently) that they believed the brownstone to be part of the FTAP or to be
abandoned. It is conceded that these beliefs were mistaken. Moreover, on this record, the only basis, if any,
for these beliefs appears to be word of mouth among
the officers.
Furthermore, in finding that the officers had probable cause to believe the brownstone was abandoned
and that those present were trespassing, the district
court also relied heavily on the police officers’ observation once they were inside the brownstone that there
were extension cords running from the brownstone to

App. 29
another property as well as the fact that when asked,
no one attending the party told the officers who owned
the brownstone. Mitchell, 2014 WL 535046, at *4.
Drawing all inferences in favor of the appellants, as we
must, we conclude to the contrary that these facts are
insufficient to establish on summary judgment as a
matter of law that the officers had probable cause to
believe that the house was abandoned.2
After the arrests, Officer Girard Moscato, having
seen the for-sale sign outside the brownstone, tried to
call Weichert Realty to inquire about the brownstone,
but, after leaving a voice message, he did not follow up.
See Colon v. City of N.Y., 455 N.E.2d 1248, 1250 (N.Y.
1983) (“[T]he failure to make a further inquiry when a
reasonable person would have done so may be evidence
of lack of probable cause.”) (citation omitted). Indeed,
as Captain Gulotta conceded, the existence of a real estate sign suggested that someone claimed ownership.
Under New York law, one commits the crime of
trespass if one “knowingly enters or remains unlawfully in or upon premises.” N.Y. Penal Law § 140.05.
The law provides:

2

The use of extension cords might have been for one of many
reasons apart from the fact that the brownstone was abandoned
and the attendees were trespassing, such as to avoid blowing a
fuse or tripping a circuit breaker on the property, or because there
was insufficient power available from the brownstone’s electrical
system without the addition of more from another source. Similarly, the silence of those present does not necessarily establish
that the officers had a reasonable factual basis for thinking that
the brownstone was abandoned.

App. 30
A person ‘enters or remains unlawfully’ in or
upon premises when he is not licensed or privileged to do so. A person who, regardless of his
intent, enters or remains in or upon premises
which are at the time open to the public does
so with license and privilege unless he defies
a lawful order not to enter or remain, personally communicated to him by the owner of
such premises or other authorized person. A
license or privilege to enter or remain in a
building which is only partly open to the public is not a license or privilege to enter or remain in that part of the building which is not
open to the public.
Id. § 140.00(5). The New York Court of Appeals has
held “it is the state’s burden to prove that an invitee
does not have privilege or license to remain on the
premises. Because it is an element of the crime, officers
must have probable cause to believe that a person does
not have permission to be where she is before they
arrest her for trespass.” Davis v. City of N.Y., 902
F. Supp. 2d 405, 426 (S.D.N.Y. 2012) (discussing New
York v. Brown, 254 N.E.2d 755, 756-57 (N.Y. 1969)). Appellees’ mass arrest for trespass, on this record, could
easily be found to have been based entirely on baseless
and unreasonable conjectures and assumptions as to
the ownership of the property or its FTAP status.
Under these circumstances, viewing the record in
the light most favorable to appellants, a dispute of material fact exists as to whether the police officers could
have reasonably believed the appellants were trespassers. There was no reasonable basis for the belief

App. 31
that the building was in the FTAP, and the for-sale sign
belied abandonment. The lack of any known claimant
asserting legal occupancy of the premises on this record may eliminate any claim of unlawful entry by the
police, but it provides no corresponding individualized
probable cause to arrest appellants for trespass.
Accordingly, we vacate the dismissal of appellants’
false arrest claims.
2)

Qualified Immunity

We leave open for decision in the first instance by
the district court on remand the question of whether
the appellees are entitled to qualified immunity with
respect to the false arrest claim. See Tellier v. Fields,
280 F.3d 69, 84 (2d Cir. 2000) (“Because qualified immunity is an affirmative defense, . . . the defendants
bear the burden of showing that the challenged act was
objectively reasonable in light of the law existing at the
time.”).
c) Malicious Prosecution
We next address the district court’s dismissal of
appellant Melinda’s federal and state malicious prosecution claims. See Mitchell, 2014 WL 535046, at *5. In
order to prevail on such a claim under both Section
1983 and New York State law, a plaintiff is required to
demonstrate: (i) the commencement or continuation of
a criminal proceeding against her; (ii) the termination
of the proceeding in her favor; (iii) “that there was no

App. 32
probable cause for the proceeding”; and (iv) “that the
proceeding was instituted with malice.” Kinzer v. Jackson, 316 F.3d 139, 143 (2d Cir. 2003) (citations omitted);
see also Colon, 60 N.Y.2d at 82 (similar). When raising
a malicious prosecution claim under Section 1983, a
plaintiff must also show a “seizure or other perversion
of proper legal procedures implicating the claimant’s
personal liberty and privacy interests under the
Fourth Amendment.” Washington v. Cty. of Rockland,
373 F.3d 310, 316 (2d Cir. 2004) (internal quotation
marks and citation omitted).
We first address Melinda’s state law and federal
law claims under the Kinzer test. We have held that,
under New York law, the issuance of a DAT constitutes
a criminal proceeding initiation. See Stampf v. Long Island R.R. Co., 761 F.3d 192, 199 (2d Cir. 2014) (“[W]e
adhere to the position we took in Rosario that, under
New York law, the issuance of a DAT sufficiently initiates a criminal prosecution to sustain a claim of malicious prosecution.”); Rosario v. Amalgamated Ladies’
Garment Cutters’ Union, Local 10, 605 F.2d 1228, 1250
(2d Cir. 1979) (“[W]e believe that if a New York court
faced the question before us it would rule that the issuance of [a DAT] commences a prosecution for purposes of determining whether an action for malicious
prosecution lies.”). Accordingly, we find that Melinda
has met the first Kinzer prong. She has also satisfied
prongs two and three by showing, respectively, that the
proceeding terminated in her favor when the District
Attorney’s Office declined to prosecute her, and, as discussed supra, that there was no probable cause for her

App. 33
arrest. Where her claim fails, however, is at the fourth
prong, because she has not alleged or proffered any
facts that the DAT was issued with malice. Both of her
malicious prosecutions, therefore, fail.
As Melinda fails to state a malicious prosecution
claim under the Kinzer test, we need not reach the
question of whether her single court appearance constituted a seizure under the Fourth Amendment for
purposes of her Section 1983 malicious prosecution
claim, and we leave the question for another day.
We therefore hold the district court properly dismissed Melinda’s state and federal malicious prosecution claims.
d) Abuse of Process
We now turn to appellants’ abuse-of-process claim.
To successfully state such a claim, “it is not sufficient
for a plaintiff to allege that the defendants were seeking to retaliate against him by pursuing his arrest and
prosecution. Instead, he must claim that they aimed to
achieve a collateral purpose beyond or in addition to
his criminal prosecution.” Savino v. City of N.Y., 331
F.3d 63, 77 (2d Cir. 2003).
Whether or not the police officers may have sought
to retaliate against appellants by arresting them, appellants have proffered no evidence that the police officers attempted to achieve any other collateral
purpose beyond arresting appellants for trespass. We
hold, therefore, albeit for different reasons, that the

App. 34
district court correctly dismissed appellants’ abuse-ofprocess claim.
e) Municipal Liability
We turn finally to the district court’s dismissal of
appellants’ municipal liability claim. See Mitchell,
2014 WL 535046, at *6. To prevail, a plaintiff must
identify the existence of a municipal policy or practice
that caused the alleged constitutional violation. See
Monell v. Dep’t of Soc. Servs. of City of N.Y., 436 U.S.
658, 694-95 (1978). A plaintiff must also demonstrate
a sufficient causal relationship between the violation
and the municipal policy or practice. Id.
As discussed supra, while appellants have sufficiently supported their claim that their arrests lacked
individual probable cause, they have not supported
their claim of municipal liability. Appellants have proffered no evidence to show that the arrests occurred
pursuant to a city policy or practice. See City of Okla.
City v. Tuttle, 471 U.S. 808, 823-24 (1985) (plurality)
(“Proof of a single incident of unconstitutional activity
is not sufficient to impose liability under Monell, unless proof of the incident includes proof that it was
caused by an existing, unconstitutional municipal policy[ ] [that] can be attributed to a municipal policymaker.”) (plurality); accord Fenner v. City of N.Y.,
No. 08 Civ. 2355(BMC)(LB), 2009 WL 5066810, at *4
(E.D.N.Y. Dec. 21, 2009) (“At most, plaintiff has identified a single incident of a constitutional violation. Even
assuming such a violation occurred . . . the Supreme

App. 35
Court has squarely held that this is insufficient to create liability under Monell.”) (citation omitted), aff ’d,
392 F. App’x 892, 894 (2d Cir. 2010) (summary order).
Therefore, the district court correctly dismissed appellants’ Monell claim.
CONCLUSION
For the reasons stated, we vacate and remand the
lower court’s summary judgment rulings as to the false
arrest claims and the question of qualified immunity.
We affirm the district court’s remaining summary
judgment rulings.

App. 36
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------------- x
MELINDA MITCHELL and
HARVEY MITCHELL,
individually, and on behalf of a
class of all others similarly situated,
Plaintiffs,
-againstTHE CITY OF NEW YORK, a
municipal entity; New York City
Police Officer JAMES SCHUESSLER,
Shield No. 28718; New York City
Police Officer MARK BRINADZE;
New York City Police Captain
JOSEPH GULOTTA; New York
City Police Sergeant DANIELLE
ROVENTINI; New York City Police
Lieutenant KATHLEEN CAESAR;
New York City Police Supervisors
And Commanders RICHARD ROEs
1-50; New York City Police Officers
JOHN DOEs 1-50, individually
and in their official capacities,
jointly and severally,
Defendants.
--------------------------------------------------- x

12 Civ. 2674
(LAK)

App. 37
MEMORANDUM OPINION
(Filed Feb. 11, 2014)
Appearances:
Jeffrey A. Rothman
Jonathan C. Moore
Jennifer Rolnick Borchetta
BELDOCK LEVINE & HOFFMAN LLP
Attorneys for Plaintiffs
Brian C. Francolla
Erica M. Haber
NEW YORK CITY LAW DEPARTMENT
Attorneys for Defendants
LEWIS A. KAPLAN, District Judge.
Named plaintiffs Melinda and Harvey Mitchell1
bring this putative class action against the City of New
York and certain named and unnamed police officers,
asserting claims for false arrest, malicious prosecution,
abuse of process, excessive force, and municipal liability under Section 1983 as well as various state law
claims.2 Plaintiffs move for partial summary judgment
1

Plaintiffs Melinda and Harvey Mitchell are not related.
Rothman Decl. [DI 25], Ex. 1 at 107:5-22 (M. Mitchell Dep.), Ex.
2 at 27:2-14, 52:8-14 (H. Mitchell Dep.).
2
Plaintiffs bringing state law claims of this nature in federal
court nevertheless must file a timely notice of claim under N.Y.
GEN. MUN. L. § 50-e. See generally Corcoran v. New York Power
Auth., 202 F.3d 530, 541 (2d Cir. 1999). These plaintiffs concededly did not do so. See DI 37. This failure merits summary judgment dismissing their state law claims. E.g., Fincher v. Cnty. of
Westchester, 979 F. Supp. 989, 1003 (S.D.N.Y. 1997); see also
Lipinski v. Cnty. of Broome, 175 A.D.2d 369, 572 N.Y.S.2d 98, 99

App. 38
on their false arrest and state law battery claims. Defendants cross-move for summary judgment dismissing all of plaintiffs’ claims.
Facts3
In or about December 2010, Lieutenant Caesar of
the New York City Police Department responded to an
incident at 2142 Atlantic Avenue in Brooklyn.4 On that
occasion, she discovered that the premises at the location appeared abandoned, having little inside other
than a bar and a “dance pole area.”5 Police subsequently made it a point to drive past the house.6
At approximately 2:15 a.m. on January 9, 2011,
about one month later, Lieutenant Caesar observed
three individuals standing on the porch at 2142
Atlantic Avenue.7 She then called another officer.8
Lieutenant Hopkins, Deputy Inspector Gulotta, and
approximately thirty additional officers responded to
(3d Dep’t 1991) (describing the process for moving for leave to file
a late notice of claim in state court where plaintiffs have brought
their state law claims in federal court).
3
Unless otherwise indicated, the facts upon which the Court
relies are undisputed.
4
Defs’ Rule 56.1 Statement [DI 21] ¶ 3; Francolla Decl. [DI
19], Ex. B at 31:23-33:8, 64:2378:20 (Caesar Dep.).
5
DI 21 ¶¶ 4-5; DI 19, Ex. B at 29:13-23, 31:24-38:19, 43:9-13
(Caesar Dep.).
6
DI 21 ¶ 5; DI 19, Ex. B at 44:9-14 (Caesar Dep.).
7
DI 21 ¶ 7; DI 19, Ex. B at 29:13-30:9, 50:23-51:11, 53:15-19
(Caesar Dep.).
8
DI 21 ¶ 7; DI 19, Ex. B at 55:7-12 (Caesar Dep.).

App. 39
the address.9 Deputy Inspector Gulotta believed that
there had been a history of parties at the location and
incorrectly believed that a rape had been committed
there several weeks earlier.10
The officers observed that the first-floor windows
were blocked and that there was a real estate sign in
the front of the property, which was surrounded by a
waist-high steel fence.11 They attempted to enter the
house but found that the front door was locked.12 Lieutenant Caesar then attempted to enter the building
through the back door and found that it was “blocked,
like [by] something heavy against the door.”13 She and
other officers ultimately were able to push the door
open.14

9

DI 21 ¶¶ 8-9; DI 19, Ex. E at 28:14-31:16 (Hopkins Dep.),
Ex. F at 44:13-46:6 (Gulotta Dep.).
10
DI 21 ¶¶ 43, 45; DI 19, Ex. F at 36:10-23, 37:6-21, 38:2-11,
39:17-40:6 (Gulotta Dep.).
Plaintiffs object that “Captain Gulotta’s . . . understanding
that parties had been held at the location previously [is] hearsay.”
Pls’ Response to Defs’ Rule 56.1 Statement [DI 32] ¶¶ 43, 45. The
objection is overruled. The testimony is being introduced to show
Deputy Inspector Gulotta’s state of mind, not for the truth of the
matter. See Tuccio v. Papstein, 307 F. App’x 545, 546 (2d Cir.
2009).
11
DI 21 ¶¶ 10-13, 17; DI 19, Ex. C at 42:2-43:1 (M. Mitchell
Dep.), Ex. D at 35:20-36:15 (H. Mitchell Dep.), Ex. F at 81:7-16
(Gulotta Dep.), Ex. G at 44:21-47:3 (Moscato Dep.).
12
DI 21 ¶¶ 15-16; DI 19, Ex. H at 22:25-25:3 (Schuessler
Dep.).
13
DI 21 ¶¶ 16, 20; DI 19, Ex. B at 78:20-79:9 (Caesar Dep.).
14
DI 21 ¶ 20; DI 19, Ex. B at 79:13-17 (Caesar Dep.).

App. 40
Upon entering, they discovered that a party was
taking place inside15 with between 40 and 60 people in
attendance.16 The party included disco lights, a bar, a
DJ and DJ booth, a television, and some couches.17 Detective Inspector Gulotta smelled a strong odor of marijuana,18 and Office Schuessler observed six to eight
“nickel” or “dime” bags on the floor containing what appeared to be marijuana and crack cocaine.19
Deputy Inspector Gulotta and Lieutenant Caesar
believed that the house had been abandoned by its
owner.20 There were portable heaters throughout and
extension cords that ran to a neighbor’s garage.21 When
15

DI 21 ¶ 22; DI 19, Ex. F at 50:18-51:7 (Gulotta Dep.).
Pls’ Rule 56.1 Statement [DI 24] ¶¶ 19-20; DI 25, Ex. 2 at
57:22-58:4 (H. Mitchell Dep.), Ex. 4 at 1.
17
DI 21 ¶ 23; DI 19, Ex. F at 50:18-51:7 (Gulotta Dep.), Ex.
C at 48:3-13 (M. Mitchell Dep.), Ex. D at 39:18-40:23 (H. Mitchell
Dep.).
18
DI 21 ¶ 22; DI 19, Ex. F at 50:18-51:7 (Gulotta Dep.). Officer Peterson, however, did not recall smelling marijuana in the
house. DI 25, Ex. 25 at 152:5-10 (Peterson Dep.).
19
DI 21 ¶¶ 36-37; DI 25, Ex. 15 at 91:12-94:4 (Schuessler
Dep.).
The police later recovered nine bags of “vegetative matter,”
one cigarette of “vegetative matter,” and one bag containing a
“solid substance.” DI 21 ¶ 47; DI 19, Ex. I, J.
20
DI 21 ¶¶ 5, 29, 34; DI 19, Ex. B at 29:13-23, 31:19-38:19
(Caesar Dep.), Ex. F at 139:20140:19 (Gulotta Dep.). Melinda
Mitchell testified also that it didn’t appear that anyone lived in
the house. DI 21 ¶ 30; DI 19, Ex. C at 52:17-53:12 (M. Mitchell
Dep.).
21
DI 21 ¶¶ 32-33; DI 19, Ex. C at 59:19-60:4 (M. Mitchell
Dep.), Ex. F at 65:3-8 (Gulotta Dep.), Ex. H. at 39:9-41:10
(Schuessler Dep.).
16

App. 41
asked, nobody in attendance could or would identify
the party’s host.22 Plaintiffs testified that attendees responded “we didn’t do anything, we don’t know who the
person is.”23 Melinda and Harvey Mitchell stated during their depositions that they had learned of the party
through various DJs and believed they were permitted
to be there, but they did not know who owned the house
or who was hosting the party.24
After the party’s attendees failed to identify who
was hosting the party or owned the house, Deputy Inspector Gulotta decided to arrest everyone inside.25
Melinda Mitchell then was arrested and handcuffed by
an officer who allegedly refused to loosen her handcuffs
after she complained that they were too tight.26 She remained handcuffed for approximately one hour, which
allegedly caused bruising on her wrist, several days’
soreness, and necessitated treatment with ice packs

22

DI 21 ¶¶ 38-41; DI 19, Ex. C at 66:3-17, 68:9-20 (M. Mitchell Dep.), Ex. D at 63:20-64:11, 67:22-68:7 (H. Mitchell Dep.), Ex.
F at 50:18-51:11, 139:20-140:21 (Gulotta Dep.).
23
DI 24 ¶ 26; DI 25, Ex. 1 at 68:21-69:6 (M. Mitchell Dep.),
Ex. 2 at 64:1-65:13 (H. Mitchell Dep.).
24
DI 25, Ex. 1 at 23:10-17, 57:9-57:18, 66:9-12, 68:9-17 (M.
Mitchell Dep.), Ex. 2 at 30:1014, 46:2-10, 49:11-17, 64:1-19 (H.
Mitchell Dep.).
25
DI 21 ¶ 46; DI 19, Ex. F at 57:14-58:5, 153:14-17 (Gulotta
Dep.). Lieutenant Caesar testified that Detective Gulotta consulted with the other officers and then decided to arrest all of
those present at the party. Id. Ex. B at 88:13-18 (Caesar Dep.).
26
DI 21 ¶¶ 48-49; DI 19, Ex. C at 74:7-78:2 (M. Mitchell
Dep.).

App. 42
and six Advil over two days.27 Harvey Mitchell was arrested and handcuffed for 20-30 minutes, which left
marks on his arms and caused him two to three hours
of pain.28
Melinda Mitchell was released with a desk appearance ticket requiring her to appear in court approximately one month later. The Kings County
District Attorney’s Office ultimately elected not to
prosecute.29 Harvey Mitchell accepted an adjournment
in contemplation of dismissal on April 12, 2011.30
Discussion
I.

The Summary Judgment Standard

Summary judgment is appropriate if there is no
genuine issue of material fact and the moving party is
entitled to judgment as a matter of law.31 Where the
burden of proof at trial would fall on the nonmoving
party, it ordinarily is sufficient for the movant to point
to a lack of evidence to go to the trier of fact on an

27

DI 21 ¶¶ 51-52, 54; DI 19, Ex. C at 82:25-83:3, 87:24-92:7
(M. Mitchell Dep.).
28
DI 24 ¶¶ 68-70; DI 19, Ex. D at 76:13-78:11 (H. Mitchell
Dep.).
29
DI 21 ¶¶ 62-64; DI 25, Ex. 1 at 98:19-99:14 (M. Mitchell
Dep.), Ex. 6.
30
DI 21 ¶ 65; DI 19, Ex. L.
31
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48
(1986); White v. ABCO Eng’g Corp., 221 F.3d 293, 300 (2d Cir.
2000); see also FED. R. CIV. P. 56(c).

App. 43
essential element of the nonmovant’s claim.32 In that
event, the nonmoving party must come forward with
admissible evidence sufficient to raise a genuine issue
of fact for trial in order to avoid summary judgment.33
“Evidence presented by the nonmoving party [that] is
merely colorable, or is not significantly probative . . . or
[ ] is based purely on conjecture or surmise” will not
defeat summary judgment.34
There is another factor relevant to the proper disposition of this motion. Local Civil Rule 56.1 of this
Court provides in relevant part as follows:
“(a) Upon any motion for summary judgment
. . . , there shall be annexed to the notice of motion
a separate, short and concise statement . . . of the
material facts as to which the moving party contends there is no genuine issue to be tried. Failure
to submit such a statement may constitute
grounds for denial of the motion.”
“(b) The papers opposing a motion for summary
judgment shall include a correspondingly numbered paragraph responding to each numbered
paragraph in the statement of the moving party
and if necessary, additional paragraphs containing a separate, short and concise statement of
32

Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986); Virgin Atl. Airways Ltd. v. British Airways PLC, 257 F.3d 256, 273
(2d Cir. 2001).
33
See. e.g., Nora Beverages. Inc. v. Perrier Grp. of Am., Inc.,
269 F.3d 114, 123-24 (2d Cir. 2001); Raskin v. Wyatt Co., 125 F.3d
55, 65-66 (2d Cir. 1997).
34
Savino v. City of New York, 331 F.3d 63, 71 (2d Cir. 2013)
(citations and quotation marks omitted).

App. 44
additional material facts as to which it is contended that there exists a genuine issue to be
tried.”
“(c) Each numbered paragraph in the statement
of material facts set forth in the statement required to be served by the moving party will be
deemed to be admitted for purposes of the motion
unless specifically controverted by a correspondingly numbered paragraph in the statement required to be served by the opposing party.”
“(d) Each statement by the movant or opponent
pursuant to Rule 56.1(a) and (b), including each
statement controverting any statement of material fact, must be followed by citation to evidence
which would be admissible, set forth as required
by Fed. R. Civ. P. 56(c)..”
The purpose of the rule “is to assist the Court in
understanding the scope of the summary judgment
motion by highlighting those facts which the parties
contend are in dispute.”35 In order for a Rule 56.1 statement in opposition to a motion for summary judgment
to serve this purpose, it must respond appropriately to
the movant’s statement. Thus, “[a] proper Rule 56.1
statement submitted by a non-movant should consist
of a paragraph-by-paragraph response to the movant’s

35

Archie Comic Publ’ns, Inc. v. DeCarlo, 258 F. Supp. 2d 315,
317 (S.D.N.Y. 2003) (citing Rodriguez v. Schneider, No. 95 Civ.
4083(RPP), 1999 WL 459813, at *1 n.3 (S.D.N.Y. June 29, 1999)).
Accord, e.g., Goldstick v. The Hartford, Inc., No. 00 Civ.
8577(LAK), 2002 WL 1906029, at *1 (S.D.N.Y. Aug. 19, 2002);
Fernandez v. DeLeno, 71 F. Supp. 2d 224, 227-28 (S.D.N.Y. 1999).

App. 45
56.1 statement, much like an answer to a complaint.”36
It must cite admissible evidence in support of the nonmovant’s contention creates a genuine issue for trial37
or, where the non-movant contends that further discovery is required to enable it to raise a genuine issue with
admissible evidence, must be accompanied by a Rule
56(d) affidavit that demonstrates such a need with respect to each relevant averment in the movant’s Rule
56.1 Statement.
In this case, both sides have submitted Rule 56.1
Statements and responses. The material facts substantially are uncontested. To the extent that plaintiffs object to defendants’ material facts relied upon by this
Court, their objections have been addressed explicitly
above or are insufficient because they are premised on
grounds of “materiality” rather than accuracy, admissibility, or some other appropriate basis.38
II.

False Arrest

To prevail on a claim for false arrest under Section
1983, a plaintiff must show that “(1) the defendant
36

Archie Comic, 258 F. Supp. 2d at 317-18 (citation omitted).
Id.
38
E.g., Pl. Resp. to Def. 56.1 Statement [DI 32] ¶ 29 (“Objection. Captain Gulotta’s conclusory statement that 2142 Atlantic
Avenue appeared uninhabited to him is immaterial. . . .”); ¶ 33
(“Admit that Police Officer Schuessler has so testified concerning
a power cord running out the back door into a neighboring garage.
Objection, as this fact is immaterial, as there is no indication that
any of the party guests had access to, or were in, the backyard at
any point.”).
37

App. 46
intended to confine [the plaintiff ]; (2) plaintiff was conscious of the confinement; (3) plaintiff did not consent
to the confinement and (4) the confinement was not
otherwise privileged.”39 Confinement is “privileged”
where the police have probable cause to arrest.40 An officer has probable cause to arrest where he or she “has
knowledge or reasonably trustworthy information sufficient to warrant a person of reasonable caution in the
belief that an offense has been committed by the person to be arrested.”41 The arresting officer’s subjective
motivation for the arrest is immaterial as long as there
is probable cause to arrest the suspect for some
crime.42 One officer’s knowledge is imputed to all other
officers involved in an investigation,43 and a later determination that an arresting officer relied upon mistaken information is immaterial as long as the officer
reasonably relied on it at the time of arrest.44 A court
may determine that probable cause existed as a matter
of law where “there is no dispute as to the pertinent
events and the knowledge of the officers.”45
39

Singer v. Fulton County Sheriff, 63 F.3d 110, 118 (2d Cir.

1995).
40

Covington v. City of New York, 171 F.3d 117, 122 (2d Cir.

1999).
41

Singer, 63 F.3d at 119 (citation and internal quotations
omitted).
42
Devenpeck v. Alford, 543 U.S. 146, 152 (2004).
43
De Michele v. City of New York, 09 Civ. 9334 (PGG), 2012
WL 4354763, at *7 (S.D.N.Y. Sept. 24, 2012) (citing United States
v. Colon, 250 F.3d 130, 135 (2d Cir. 2001)).
44
Bernard v. United States, 25 F.3d 98, 103 (2d Cir. 1994).
45
Weyant v. Okst, 101 F.3d 845, 852 (2d Cir. 1996).

App. 47
Defendants argue that they had probable cause to
arrest plaintiffs for criminal trespass in the second degree, trespass, loitering in the first degree, criminal
possession of a controlled substance in the seventh degree, and unlawful possession of marijuana. Because
the Court concludes that the undisputed facts show
that the police had probable cause to arrest the plaintiffs for trespass, it does not consider the other proffered justifications.
“A person is guilty of trespass when he knowingly
enters or remains unlawfully in or upon premises.”46
An individual has license and privilege to be at a premises which is “open to the public” “unless he defies a
lawful order not to enter or remain, personally communicated to him by the owner of such premises or other
authorized person.”47 Extrapolating from the factors
that a jury might consider in determining whether
premises are “open to the public” in a trespass or burglary prosecution, an arresting officer making the
same determination in the field should take into account:
“the type of building involved; who owned the
building; whether such ownership was posted
or advertised; the physical condition and general appearance of the building; the purpose,
if any, for which it was being used; whether
members of the public were expressly or impliedly invited to enter; whether the public
moved freely in and out of the building;
46
47

N.Y. PENAL LAW § 140.05 (McKinney).
Id. § 140.00.

App. 48
whether doors and windows of the building
were intact and were closed, locked or blocked;
and whether any warning signs were conspicuously posted; as well as any other evidence
which might have some bearing on their determination in this regard.”48
A person is licensed and privileged to enter private
property where “he has obtained the consent of the
owner or another whose relationship to the premises
gives him authority to issue such consent.”49 One who
“honestly believes that he is licensed or privileged to
enter, is not guilty of any degree of criminal trespass.”50
Relevant here is not whether the plaintiffs in fact
knowingly entered or remained unlawfully at 2142 Atlantic Avenue, but whether the police had probable
cause to believe that they had done so. In other words,
probable cause is established and summary judgment
for the defendants is warranted if there is no dispute
as to the relevant events and that the police had
knowledge “sufficient to warrant a person of reasonable caution” to believe that the arrestees committed
trespass.51
The undisputed evidence demonstrates that the
police were reasonable in believing that 2142 Atlantic
48

People v. Taylor, 114 Misc. 2d 680, 683-84, 452 N.Y.S.2d
526, 528-29 (Sup. Ct. 1982); see generally Harris v. Phillips, 05
Civ. 2870 (RRM), 2013 WL 1290790, at *10 (E.D.N.Y. Mar. 28,
2013).
49
People v. Graves, 76 N.Y.2d 16, 20 (1990).
50
People v. Basch, 36 N.Y.2d 154, 159 (1975).
51
Singer, 63 F.3d at 119.

App. 49
Avenue was not “open to the public.” The house at that
address was a private residence, not a store, park, or
other obviously public facility. When the police arrived,
they encountered a locked front door, a barricaded back
door, and observed blacked out windows. From the police’s perspective, there was a clear intention on the
part of those inside to keep others – i.e., members of
the public – out of the house. Such behavior is uncommon in public spaces. That the police had concluded
that the structure was an abandoned house based on
information gleaned several weeks earlier when they
investigated an incident there further provided them
with a basis to believe that the property was not open
to the public.52
For many of the same reasons and several more,
the police were reasonable in believing that those inside the house did not have license or privilege to be
there. Most compelling is that no one inside would or
could answer when asked who owned the apartment
and who was throwing the party. In the face of such
answers, and taking into account the portable heaters
and extension cords that ran through the house and to
a neighbor’s garage, the police possessed sufficient reliable facts to conclude that the house had been abandoned and that those inside were using it as a party

52

The front door was locked and the back door was closed but
unlocked when Lieutenant Caesar entered the house in or about
December 2010. DI 19, Ex. B at 32:23-36:14 (Caesar Dep.).

App. 50
venue without the legal owner’s knowledge or permission.53
This is not to say that any or all of the arrestees
would have been convicted on these facts if charged
with trespass. But police are not expected to “sit as
prosecutor, judge, or jury”54 or to “explore and eliminate every theoretically plausible claim of innocence
before making an arrest.”55 “Their function is to apprehend those suspected of wrongdoing, and not to finally
determine guilt through a weighing of the evidence.”56
III. Malicious Prosecution57
To prevail on a claim of malicious prosecution, a
plaintiff must demonstrate (1) the initiation or continuation of a criminal proceeding against them; (2) termination of the proceeding in plaintiff ’s favor; (3) lack
53

Cf. Davis v. City of New York, 373 F. Supp. 2d 322, 332-33
(S.D.N.Y. 2005) (holding that the police had probable cause to arrest plaintiffs for trespass where they were found on the roof of a
building with no apparent commercial or residential use and
there was no evidence or claim by the plaintiffs that they had license or privilege to be there).
54
Krause v. Bennett, 887 F.2d 362, 372 (2d Cir. 1989).
55
Martinez v. Simonetti, 202 F.3d 625, 635 (2d Cir. 2000).
56
Krause, 887 F.2d at 372.
Even if the Court were to have determined that there was not
probable cause to arrest, there certainly was arguable probable
cause sufficient to find that the officers are entitled to qualified
immunity. See Cerrone v. Brown, 246 F.3d 194, 202-03 (2d Cir.
2001).
57
Only Melinda Mitchell asserts a claim for malicious prosecution.

App. 51
of probable cause for commencing the proceeding; and
(4) actual malice as a motivation for defendant’s actions.58 When raised as a Section 1983 claim, a plaintiff
must demonstrate also “a seizure or other ‘perversion
of proper legal procedures’ implicating the plaintiff ’s
personal liberty and privacy interests under the
Fourth Amendment.”59
Defendants argue that Melinda Mitchell’s malicious prosecution claim must fail because issuance of a
desk appearance ticket does not give rise to such a
claim under state or federal law. The law in this area
is somewhat unsettled. Relying on Rosario v. Amalgamated Ladies’ Garment Cutters’ Union,60 this Court
held previously that issuance of a desk appearance
ticket could support a malicious prosecution claim.61
Although Rosario remains good law, two more recent
Second Circuit decisions cast doubt on whether a Section 1983 claim for malicious prosecution can lie under
these facts. Singer v. Fulton County Sheriff 62 drew a
bright line, declaring that “[t]ypically, a warrantless
deprivation of liberty from the moment of arrest to the
time of arraignment will find its analog in the tort of
58

Kinzer v. Jackson, 316 F.3d 139, 143 (2d Cir. 2003).
Washington v. County of Rockland, 373 F.3d 310, 316 (2d
Cir. 2004) (citation omitted); Garrett v. Port Auth. of New York &
New Jersey, 04 Civ. 7368 (DC), 2006 WL 2266298, at *6 (S.D.N.Y.
Aug. 8, 2006).
60
605 F.2d 1228 (2d Cir. 1979).
61
Lopez v. City of New York, 901 F. Supp. 684, 688 (S.D.N.Y.
1995).
62
63 F.3d 110 (2d Cir. 1995).
59

App. 52
false arrest . . . while the tort of malicious prosecution
will implicate post-arraignment deprivations of liberty.”63 Such a rule would affect both state law malicious prosecution claims and claims under Section
1983. The court there, however, did not consider a situation in which the plaintiff was subjected to some official action – such as receipt of a summons or desk
appearance ticket – between arrest and arraignment,
as is the case here.
More on point is Burg v. Gosselin,64 which held
that a summons that did not restrict the suspect’s
travel and required a single court appearance did not
effect a seizure for Fourth Amendment purposes.65
Courts in this district similarly have held that “[a]
charge and a warrantless arrest – concluding with the
issuance of the desk appearance ticket – may be a sufficient deprivation of liberty to support a claim for false
arrest, but do not amount to a prosecution and cannot
alone support a claim for malicious prosecution.”66
Melinda Mitchell has failed to allege facts or adduce any evidence demonstrating that she was seized,
for Fourth Amendment purposes, under Burg. Her only
claim is that the police issued her a desk appearance
63

Id. at 117.
591 F.3d 95 (2d Cir. 2010).
65
Id. at 98, 101 (“We therefore are joining a consensus of appellate courts in holding that a pre-arraignment, non-felony summons requiring no more than a later court appearance does not
constitute a Fourth Amendment seizure.”).
66
Garrett, 2006 WL 2266298, at *7; Katzez, 2000 WL 23229,
at *4.
64

App. 53
ticket requiring her presence in court a single time.
She does not claim and has not shown that her travel
was restricted or that she was required to appear in
court multiple times. Burg therefore is squarely on
point.
IV.

Abuse of Process

Plaintiffs’ abuse of process claim entirely is baseless. They argue that the police arrested the party’s attendees in “retaliation” for their failure to answer who
owned the apartment or hosted the party. But no reasonable jury possibly could view as retaliation a police
officer electing to arrest someone who to all appearances is trespassing and refuses to explain how or why
he in fact is not trespassing.
V.

Excessive Force

Plaintiffs next argue that the officers used excessive force in applying handcuffs.
In determining such a claim, courts consider
whether “1) the handcuffs were unreasonably tight; 2)
the defendants ignored the arrestee’s pleas that the
handcuffs were too tight; and 3) the degree of injury
to the wrists.”67 To prevail on a claim of excessive force,
a plaintiff must demonstrate that the handcuffmg

67

Usavage v. Port Auth. of New York & New Jersey, 932
F. Supp. 2d 575, 592 (S.D.N.Y. 2013) (quoting Esmont v. City of
New York, 371 F. Supp. 2d 202, 215 (E.D.N.Y. 2005)).

App. 54
“cause[d] some injury beyond temporary discomfort.”68
Section 1983 excessive force claims routinely are dismissed where the plaintiffs claim similar or even
greater injury than Melinda and Harvey Mitchell
claim here. Plaintiffs, however, point to a recent decision in which a court in this district denied a motion to
dismiss an excessive force claim, reasoning that “FY
the force used was unreasonable and excessive, the
plaintiff may recover even if the injuries inflicted were
not permanent or severe.”69

68

Lynch ex rel. Lynch v. City of Mount Vernon, 567
F. Supp. 2d 459, 468 (S.D.N.Y. 2008); see also Faruki v. City of
New York, 10 Civ. 9614 (LAP), 2012 WL 1085533, at *6 (S.D.N.Y.
Mar. 30, 2012) (“Minor injuries from tight handcuffs are insufficient to support an excessive force claim under the Fourth
Amendment. Plaintiff has alleged bruising of the wrists, and the
photograph of her wrists taken after her arrest shows some redness and possibly swelling, but these injuries were healing two
weeks after the arrest at the time of her second visit to Dr. Zola
and are insufficient to support a constitutional violation.”); Smith
v. City of New York, 04 Civ. 3286 (TPG), 2010 WL 3397683, at *2
(S.D.N.Y. Aug. 27, 2010) (“Plaintiff ’s only alleged injury from the
handcuffing is what he described as ‘red rings’ around his wrists
once the handcuffs were removed, lasting less than a day.”); Vogeler v. Colbath, 04 CIV. 6071(LMS), 2005 WL 2482549, at *10
(S.D.N.Y. Oct. 6, 2005) (“the Plaintiffs’ mere claims of minor discomfort do not establish a triable issue that can withstand Defendant’s motion for summary judgment”); Rincon v. City of New
York, No. 03 Civ. 8276, 2005 WL 646080, at *5 (S.D.N.Y. Mar. 21,
2005) (“Aside from the swelling in her wrist, Plaintiff does not
allege that Defendants caused any other injuries. Plaintiff ’s allegations are de minimus and simply do not amount to a constitutional violation.”).
69
Hershey v. Goldstein, 938 F. Supp. 2d 491, 519 (S.D.N.Y.
2013) (quoting Robison v. Via, 821 F.2d 913, 924 (2d Cir. 1987)).

App. 55
The holding in Hershey has no bearing on this
case. The court there denied the motion to dismiss because the plaintiff alleged that the handcuffmg caused
him to suffer paresthesia in his hands, which prevented him from engaging in leafleting activities for
three weeks.70 Harvey Mitchell claims that he was
handcuffed for approximately 20-30 minutes and suffered pain for several hours. Melinda Mitchell claims
that she was handcuffed for approximately one hour
and suffered pain and bruising for approximately two
days. Neither even alleges that the effects of the handcuffing limited their ability to engage in day-to-day activities, caused severe pain, long-term damage, or
anything approximating the level required to defeat
defendants’ motion for summary judgment.71
VI. Municipal Liability
Having held that plaintiffs have failed to adduce
facts supporting a constitutional claim, plaintiffs’
claim of municipal liability must fail under the rule announced in Monell.72 Even if this were not so, plaintiffs

70

Id.
Defendants additionally are entitled to qualified immunity
for their actions in handcuffing plaintiffs because it was and is
not clearly established law that the officers used excessive force
under the circumstances. See Beckles v. City of New York, 492 F.
App’x 181, 182-83 (2d Cir. 2012).
72
City of Los Angeles v. Heller, 475 U.S. 796 (1986) (“[N]either Monell v. New York City Dept. of Social Services . . . nor any
other of our cases authorizes the award of damages against a municipal corporation based on the actions of one of its officers when
71

App. 56
have put forth no proof that any of the alleged violations in this case were part of a broader city policy.
They point only to other instances in which the police
have arrested large groups of people – almost all of
which occurred in the context of protests, not a party.
This plainly is insufficient.
Conclusion
For the foregoing reasons, plaintiffs’ motion for
partial summary judgment [DI 22] is denied. Defendants’ motion for summary judgment [DI 18] dismissing
the action is granted.
SO ORDERED.
Dated: February 11, 2014
/s/

Lewis A. Kaplan
Lewis A. Kaplan
United States District Judge

(The manuscript signature above is not an image of the
signature on the original document in the Court file.)

in fact the jury has concluded that the officer inflicted no constitutional harm.”).

App. 57
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
--------------------------------------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 9th day of April, two thousand nineteen.
Melinda Mitchell, individually
and on behalf of a class of all
others similarly situated, Harvey
Mitchell, individually and on
behalf of a class of all others
similarly situated,
Plaintiffs - Appellants,
v.
City of New York, a municipal
entity, NYC Police Officer James
Schuessler, Shield No. 28718,
Police Officer Joseph Brinadze,
NYPD Captain Joseph Gulotta,
NYPD Sergeant Danielle Roventini, NYPD Lieutenant Kathleen
Caesar, Richard Roes 1-50, New
York City Police Supervisors and
Commanders, John Does, 1-50
New York City Police Officers,
individually, and in their official
capacities, jointly and severally,
Defendants - Appellees.

ORDER
Docket No: 18-588
(Filed Apr. 9, 2019)

App. 58
Appellants, Melinda Mitchell and Harvey Mitchell, filed a petition for panel rehearing, or, in the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

